STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD
SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

ATTORNEY GENERAL

May 29, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Libertarian Party of Erie County v. Cuomo, No. 20-1151
Dear Mr. Harris:
This letter is written to correct an inadvertent factual error made in our Brief
in Opposition in the above-captioned case.
On Tuesday May 25 the State of New York filed its Brief in Opposition to the
Petition for Certiorari in No. 20-1151, Libertarian Party of Erie County v. Cuomo.
The petition seeks to challenge various prerequisites for firearms licenses imposed by
New York State law. On Wednesday May 26 petitioners informed me by e-mail that
petitioner John Murtari had applied for a license to carry a firearm and not only for
a premises license, as we had asserted. On Thursday May 27, while we were
investigating the matter, petitioners filed a reply brief, noting that we had made this
inadvertent error.
We have now confirmed that petitioner Murtari’s November 2014 license
application, which is not in the record below, requested a license to carry a concealed
firearm. We greatly regret this error. The error has no effect on our argument that—
as petitioners acknowledge (Reply at 6)—Murtari’s application was denied solely
because the licensing judge found that “good cause exists for the denial,” New York
Penal Law § 400.00(1)(n), based on his prior conduct (Brief in Opp. at 16-18); it was
not denied for failure to satisfy any of the other requirements that he challenges.
Thus, despite petitioners’ continued assertions to the contrary, this case does not
provide an occasion to review the constitutionality of those other requirements,
including the requirement that applicants seeking a license to carry a concealed
firearm in public must establish “proper cause” to do so, New York Penal Law
28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

§ 400.00(2)(f). While the requirement of “no good cause . . . for the denial” is described
in our Brief in Opposition as a requirement for a premises license, it is also a
requirement for the concealed carry license for which petitioner Murtari applied. And
the application of that requirement to deny Murtari a concealed carry license does
not warrant this Court’s review any more than its application to deny him a premises
license (see Brief in Opp. at 26-28).
Respectfully submitted,
Barbara D. Underwood
Solicitor General
Cc:

Michael Kuzma (counsel of record for petitioners)
James Ostrowski (counsel for petitioners)

2

